Office of
Inspector General
                    FISCAL YEARS 2010 & 2011
                      PERFORMANCE REPORT

                           January 2012
Farm Credit Ad
             dministrattion                                        Offic
                                                                       ce of Inspec
                                                                                  ctor General
                                                                                            r
                                                                   1501 Farm Cred dit Drive
                                                                   McLLean, Virginia 22102-50090




January 9, 2012

The Honorable Lelan nd A. Strom, Chairman and Chief Exxecutive Offiicer
The Honorable Kenn  neth A. Spea
                               arman, Board
                                          d Member
The Honorable Jill Lo
                    ong Thomps son, Board Member
Farm Cre
       edit Adminisstration
1501 Farrm Credit Drrive
McLean, VA 22102--5090

Dear Cha
       airman Strom
                  m and FCA Board Memb
                                     bers Spearm
                                               man and Lon
                                                         ng Thompso
                                                                  on:

The Government Performance and Results Act of 1993 encouragess organizatio           ons to managge
for resultts and hold managers ac  ccountable ffor executing
                                                           g programs to achieve desired
outcomes. The enclo   osed report documents the outcome     es or impactt of the products, service
                                                                                                 es,
and leadership of the e Office of In
                                   nspector Gen neral (OIG) d uring fiscall years 2010
                                                                                     0 and 2011.

The OIG continues too work to en
                               nhance its ro
                                           ole as an age ent for positiive change within the Fa arm
Credit Ad
        dministration
                    n (FCA or Aggency). Thee results refle
                                                         ect the comm mitment thatt OIG staff has to
assisting the FCA Booard and FCCA employee es in achievinng the Agen ncy’s mission n of ensuring ga
safe and sound Farm m Credit Sys
                               stem that pro
                                           ovides a dep pendable sou   urce of credit to farmerss and
rancherss.

We look forward to continuing to work with you to ensure
                                                       e FCA remaains effective
                                                                              e in its effortss to
accompliish its missio
                     on. I welcom
                                me your commments on w ays to impro
                                                                  ove OIG serrvices that he   elp
        eve your goa
you achie            als for FCA’s
                                 s operations
                                            s.

If you have any ques
                   stions, please call me at extension 4 241 or 4030
                                                                   0.

Respectffully,




Carl A. Clinefelter

Inspector General 


Enclosurre
                                          FARM CREDIT ADMINISTRATION 

                                         OFFICE OF INSPECTOR GENERAL


                FISCAL YEARS 2010 & 2011 PERFORMANCE REPORT

                                                 TABLE OF CONTENTS


                                                                                                                                         Page 

Executive Summary ................................................................................................................... 1 


Audits, Inspections, and Evaluations ......................................................................................... 3 


Investigations ............................................................................................................................. 7 


Legislative and Regulatory Review ............................................................................................ 9 


Outreach .................................................................................................................................. 10 


Appendix .................................................................................................................................. 12 

                             FARM CREDIT ADMINISTRATION 

                            OFFICE OF INSPECTOR GENERAL


           FISCAL YEARS 2010 & 2011 PERFORMANCE REPORT

                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG) of the Farm Credit Administration (FCA or Agency) met or
exceeded most goals for performance in fiscal years (FY) 2010 and 2011. Goals pertained to:

      audits and inspections,
      technical assistance to Agency officials and management,
      continuous improvement of the OIG staff,
      investigation of administrative and criminal violations,
      reviewing and commenting on legislation and regulations affecting the Agency and the
       Inspector General community, and
      outreach.

The OIG products listed below were timely and constructive while accommodating the priorities
of the Agency. Most products addressed risk to the Agency. Many of the products contained
recommendations to improve Agency operations.

During the reporting period the OIG issued two program audits:
          o	 Regulation and Policy Development Processes
          o	 FCA’s Approval Process of Funding Corporation Debt Issuance

Two financial statement audits were issued:
          o	 Audit of the FCA’s FY 2009 Financial Statements
          o	 Audit of the FCA’s FY 2010 Financial Statements

Two evaluations were issued:

          o	 The Federal Information Security Management Act (FISMA) Evaluation for 2009
          o	 The FISMA Evaluation for 2010

Two inspections were issued:
          o	 FCA’s Adherence to the Government in the Sunshine Act
          o	 FCA’s Borrower Complaint Processing




                            Farm Credit Administration ♦ Office of Inspector General
                                 Fiscal Years 2010-2011 Performance Report
                                                                                                1
The OIG also continued the practice of issuing Inspector General (IG) Observations. The
purpose of issuing an Observation is to alert Agency leadership to new issues, problems, or
information to aid in decision making. The IG issued Observations on:

           o	 Review and Update of FCA Board Policies
           o	 Compensation and Job Grading
           o	 Consideration of Legislative Initiatives Regarding FCA and the Farm Credit
              System Insurance Corporation’s Prior Approval of Funding Corporation Debt
              Issuances.


Survey to Gather Feedback on FCA Examination of System Institutions

    Since 1995, the OIG has developed, administered, and collected survey data from the
     Farm Credit System (FCS or System) on the quality and effectiveness of the Agency’s
     examination function and examiners for use by the Chief Examiner and FCA Chairman
     and Board as a feedback mechanism. During FY 2010-2011, eight quarterly and two
     annual summary survey reports continued to provide useful feedback, mostly positive.

FCA’s Inspector General Continues to Lead the Inspectors General Community as Vice
Chairperson of the Council of the Inspectors General on Integrity and Efficiency (CIGIE
or Council)

    The IG assumed a major role as Vice Chairperson of the CIGIE, a council formed as a
     result of the passage of the IG Reform Act of 2008. He assists the Chairperson in
     planning and carrying out all agenda items and cross cutting projects undertaken by the
     Council, consisting of all 73 Inspectors General and six other Federal officials. A charter
     and strategic plan are operational and a fully functioning Council, including various
     operating committees, permanent staff, and a training institute have enhanced the
     cohesiveness of the statutory IGs. There is national and international interest by
     governmental groups to learn and use CIGIE as a model. As a result, presentations on
     CIGIE are made by the IG at the request of foreign governmental organizations.

A measure of the OIG’s success is contributing to the Agency’s continuous utilization of sound
business practices and basic integrity. We are confident the Agency will continue to show firm
commitment to the independence of the OIG and to follow-up on OIG report findings,
conclusions, and recommendations to improve operations and programs.

The OIG welcomes comments and suggestions related to performance measurement.




                           Farm Credit Administration ♦ Office of Inspector General
                                Fiscal Years 2010-2011 Performance Report
                                                                                                 2
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.


Performance Goal 1 – Deliver quality audit, inspection, and evaluation products and services
                     that are useful to the Board.


           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Audits, inspections, and evaluations are relevant.              FCA programs and operations are more effective.
Audit coverage includes all mandated audits and at              Waste in Agency programs and operations is reduced.
least 75 percent of those suggested by the Board and            Better business practices are initiated.
management. Risk is addressed. One hundred
percent of the OIG audits are performed in high                   The OIG found and continues to avail itself of
risk/high dollar programs and activities and/or are tied           opportunities to save contracting funds by utilizing
to the Agency strategic planning goals.                            the Department of the Treasury’s Bureau of the
                                                                   Public Debt contract for financial statement auditing
OIG performed or supervised the following audits,                  services.
inspections, and evaluations of mission critical
operational areas:                                                Unqualified opinions for Agency financial
                                                                   statements have continued.
     Audit:
       Regulation and Policy Development
                                                                  Security of information has been validated and
       FCA’s Approval Process of Funding
                                                                   strengthened through FISMA reviews.
         Corporation Debt Issuances
                                                                  In lieu of a contractor, the OIG Senior IT Auditor
     Inspections:
                                                                   performs the FISMA evaluation.
       FCA’s Adherence to the Government in the
          Sunshine Act
                                                                  FCA developed an information technology action
       FCA’s Borrower Complaint Process
                                                                   plan to guide the Agency in achieving compliance
                                                                   with United States Government Configuration
     For FY 2010 and FY 2011, OIG contracted with
                                                                   Baseline.
      a Certified Public Accountant (CPA) firm to audit
      FCA’s financial statements.
                                                                  FCA has assured there are appropriate procedures
                                                                   and safeguards in place to promote compliance
     During 2009 and 2010, the OIG’s Senior IT
                                                                   with the Government in the Sunshine Act. To
      auditor performed the FISMA evaluation.
                                                                   enhance understanding, at OIG’s recommendation,
                                                                   management developed scenarios to assist Board
Products are timely, i.e., average time to complete
                                                                   members in understanding requirements of the
audits and issue draft reports will not exceed 6
                                                                   Government in the Sunshine Act.
months.
                                                                  FCA made improvements to the borrower
     Draft reports for audits, inspections, and                   complaint process, increasing efficiency,
      evaluations were issued in less than 6 months                transparency, and accountability in investigating
      (average).                                                   and processing such complaints.

                                                                  OIG determined that FCA’s approval process of the
                                                                   Funding Corporation debt issuances was operating
                                                                   efficiently and effectively.

                                                                  OIG determined FCA’s regulation and policy
                                                                     development process was operating efficiently and
                                                                     effectively and in compliance with applicable
                                                                     guidelines.

                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                           3
                       AUDITS, INSPECTIONS, AND EVALUATIONS
     Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                    efficiency, and effectiveness.

Performance Goal 1 (continued) – Deliver quality audit, inspection, and evaluation products and
                                 services that are useful to the Board.


          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT

Audits are constructive. At least 75 percent of audit           FCA is more effective in carrying out its mission.
products contain recommendations or agreed-upon
actions to improve Agency operations. The Agency                       Management’s attention to resolving open OIG
accepts at least 80 percent of the OIG audit action                     recommendations or agreed-upon actions
items.                                                                  continues to be diligent and in the majority of
                                                                        instances, resolution occurs within a 6-month
     Not all audits contained action items if the                      timeframe.
      findings did not warrant corrective action. Those
      audit and inspection products containing
      recommendations to improve Agency operations
      have been accepted as agreed-upon actions
      and are generally addressed within a year. In
      some cases, Agency management took
      immediate action for improvement as a result of
      an OIG suggestion so no formal
      recommendation was necessary.

     At the close of FY 2011, one agreed-upon action
      was open. During the 2-year reporting period,
      the two audits, two inspections and one FISMA
      evaluation resulted in twelve agreed-upon
      actions. All but one action items have been
      addressed and closed.

See Appendix (page 12) for details of audits and
inspections.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                          4
                      AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 2 – Provide technical advice and assistance to Agency officials in developing
                     sound management information and financial reporting systems and in
                     streamlining programs and organizations.

          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT
The IG advises the FCA Board concerning policy                The OIG input and advice contributes to Agency
direction or administrative priorities.                       decisions and actions that are more complete and
                                                              valid at their inception.
     The OIG, through its audit, inspection, and
      evaluation reports, provides the FCA Board                    The OIG contributed to enhancing the
      with recommendations to strengthen Agency                      Agency’s orientation and training program for
      operations.                                                    FCA Board members by recommending
                                                                     development of further guidance on
     The IG identifies management’s top
                                                                     Government in the Sunshine Act scenarios.
      challenges in the Agency’s Performance and
      Accountability Report and the OIG’s
                                                                    The Office of the Board sought technical
      semiannual reports.
                                                                     perspective on certain aspects of Agency
     IG Observations address Agency policy or                       operations: compensation, organizational
      administrative functions.                                      structure, legislative proposals, etc.
     The OIG conducts an ongoing survey of FCS                     OMS continues to strengthen its information
      institutions as to the effectiveness of the                    security program. For example, the Agency
      examination function and examiners. The
                                                                     implemented an action plan to guide the
      survey of FCS institutions was revamped in                     Agency in achieving compliance with the
      2006 and is electronic. The OIG preserves                      United States Government Configuration
      the anonymity of respondents and the integrity
                                                                     Baseline.
      of the survey.
The OIG performs analyses and provides technical                    Together with the Office of Examination, the
advice to management concerning accounting,                          OIG is currently working on updating the
management systems and controls, and performance                     survey to obtain meaningful responses from
measures.                                                            the FCS institutions following examination for
                                                                     FY 2012 and beyond.
     The OIG’s contract auditing firm assessed the
      Agency’s accounting and financial reporting             Increase in management requests for advice, audit
      annually, including controls and compliance             work, or technical assistance.
      with laws and regulations. Any
                                                                    The OIG is always receptive to management’s
      recommendations were conveyed to the FCA
                                                                     requests for audit work or for the OIG’s
      Board and to the Chief Financial Officer.
                                                                     perspective on FCA operations, whether
     The OIG’s Senior IT Auditor assessed the                       technical or non-technical in nature.
      Agency’s compliance with FISMA. Any
      recommendations were conveyed to the FCA                      The OIG has recently completed audit work in
      Board, the Chief Information Officer, and the                  the contract and procurement areas and
      Director of the Office of Management Services                  management was receptive to findings and
      (OMS). In addition, the Senior IT Auditor                      recommendations.
      made suggestions that were readily accepted
      throughout the evaluation process.




                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2010-2011 Performance Report
                                                                                                                      5
                        AUDITS, INSPECTIONS, AND EVALUATIONS
      Objective – Audit and evaluate the Agency’s programs and operations to promote economy,
                                     efficiency, and effectiveness.

Performance Goal 3 – Continuous improvement of the OIG staff, products, and internal
                     administration. Quality is highly valued.

          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT

OIG training ensures the technical proficiency of staff.        Peer review reports provide an unqualified opinion
                                                                that the OIG audit and investigative functions meet or
      The OIG team has taken technical courses to
                                                                exceed quality audit standards prescribed by the U.S.
       gain proficiencies. Courses attended include:
                                                                Government Accountability Office (GAO) and the
       - OIG Leadership courses
                                                                CIGIE.
       - Yellow Book Auditing (Government
         Accountability Office)                                         OIG peer review of the audit function was
       - Professionalism, Substance Abuse & Legal                        performed by the U.S. Commodity Futures
         Ethics                                                          Trading Commission OIG in February 2011.
       - Federal Audit Executive Council Conference                      We were found to be in full compliance with
       - ISACA seminars and webinars                                     GAO and CIGIE auditing standards. The next
       - Federal Audit Executive Committee meetings                      such review is scheduled for March 2013.
         and conferences
                                                                        OIG’s audit team completed a peer review of
       - Ethics for Virginia CPAs
                                                                         the Consumer Product Safety Commission
       - Plain Writing Act
                                                                         OIG’s audit operations in May 2011.
       - Harassment Training
       - No Fear Act                                                    The IG’s opportunity to facilitate positive
       - National Intergovernmental Audit Forum                          change within the Agency is enhanced by the
       - CIGIE Retreat                                                   quality and credibility of OIG products and
       - Ethics of Email                                                 advice.
       - FOIA/Privacy Act Training Workshop
                                                                        Management seeks and listens to the OIG’s
       - Hotline Operator Training Program
                                                                         perspective on issues.
      In addition, CIGIE training sessions and legal                   OIG staff members receive recognition through
       forums are attended. The OIG team also stays                      awards from the CIGIE community.
       current in FCA operations and strategic
       management initiatives.                                          The OIG provides sound perspectives for the
                                                                         Office of the Board on aspects of Agency
The OIG implements administrative improvements                           operations.
identified through reviews of Agency programs and
through staff involvement with the professional                         The quarterly reports on the OIG’s survey of
community.                                                               FCS institutions relative to the Agency’s
                                                                         examination function provide Agency
      The OIG website is continually improved and                       management with quantitative and narrative
       kept current. As required by the Consolidated                     feedback that assists in facilitating positive
       Appropriation Act, Pub.L.110-161, the OIG                         change.
       maintains an email list for those who wish to
       receive notification when OIG reports are                Audit, inspection, and other reports are made public
                                                                upon issuance and the OIG uses an email mechanism
       posted to the Agency’s website. There is a
                                                                to alert those on the mailing list of new publications.
       direct link to the OIG on the Agency
       homepage.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                          6
                                               INVESTIGATIONS
     Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                waste, abuse, and mismanagement in Agency programs and operations.


Performance Goal 1 – Effectively investigate and report administrative and criminal violations relating
                     to FCA programs and personnel to Agency officials, the Attorney General
                     (when appropriate), and Congress.


          PERFORMANCE MEASURES                                                      OUTCOME / IMPACT

Investigative reports are timely and presented in an             Administrative action, convictions, or pleas are
objective and factual manner. Memoranda are                      obtained for employees and/or contractors found
issued to management describing internal control                 guilty of wrongdoing.
weaknesses or program deficiencies found during the              Management actions taken against employees serve
investigative process with suggestions to prevent                as deterrent to future wrongdoing.
and/or detect future wrongdoing.
                                                                 FCA internal policies, procedures, and controls are
      There were no investigations with                         strengthened to prevent and/or detect future
       substantiated findings during FYs 2010 and                wrongdoing.
       2011. The OIG is notified of missing equipment
       if it contains personally identifiable information              Policies and procedures involving loss of
       (PII). Coordinate with law enforcement when                      equipment have been strengthened.
       warranted.
                                                                 Public confidence in the integrity of FCA programs
                                                                 and internal operations is heightened.




                                    Farm Credit Administration ♦ Office of Inspector General
                                         Fiscal Years 2010-2011 Performance Report
                                                                                                                       7
                                             INVESTIGATIONS
      Objective – Investigate observed, alleged, or suspected wrongdoing to prevent and detect fraud,
                 waste, abuse, and mismanagement in Agency programs and operations.


Performance Goal 2 – Cause FCA employees and managers to recognize their responsibility and
                     report observed or suspected wrongdoing to the OIG.


            PERFORMANCE MEASURES                                                  OUTCOME / IMPACT

Allegations of wrongdoing are received in a timely             Investigations are more successful because they are
manner and are supported by specific information.              initiated in a timely manner and have better
                                                               information.
       The OIG has a secure email hotline,
        fca-ig-hotline@rcn.com and phone numbers                     Several hotline complaints were referred to the
        703-883-4316 and 800-437-7322.                                Office of Congressional and Public Affairs, the
                                                                      Office of Examination, Department of
       Follow-up by OIG and appropriate forwarding                   Agriculture, and the Federal Bureau of
        to other Agency offices.                                      Investigation for review and follow-up.
                                                               FCA employees are more willing to report real or
                                                               suspected wrongdoing because they trust the
                                                               competence, fairness, and confidentiality of OIG’s
                                                               investigations.
                                                                     The IG and Deputy IG made presentations to
                                                                      new employees regarding their responsibility to
                                                                      report observed or suspected fraud, waste,
                                                                      abuse of authority, mismanagement, or other
                                                                      wrongdoing.




                                  Farm Credit Administration ♦ Office of Inspector General
                                       Fiscal Years 2010-2011 Performance Report
                                                                                                                        8
                         LEGISLATIVE AND REGULATORY REVIEW
   Objective – Review and make recommendations regarding existing and proposed legislation and
   regulations relating to Agency programs and operations and the Inspectors General Community.

Performance Goal 1 – Maintain an effective program for reviewing and commenting on proposed and
                     existing legislation and regulations affecting the Agency and the IG
                     Community.

           PERFORMANCE MEASURES                                                    OUTCOME / IMPACT

Processes are established and documented for                    The OIG input is part of the decision making process
identifying and circulating (as appropriate) relevant           in approving or amending legislation, regulations,
documents.                                                      circulars, and other policy positions.
      Legislation and proposed rules are tracked on a                The OIG established a collaborative process
       regular basis.                                                  with the Office of Regulatory Policy to designate
      The CIGIE Legislation Committee is active in                    points in time when information on regulations
       forwarding interest items.                                      and briefings will be sent to the OIG.
Constructive comments on relevant documents are                 Constructive criticism and creative alternatives offered
submitted by the deadlines requested by the office,             in OIG comments improve the quality and usefulness
Agency, or staff circulating comments.                          of documents initiated by the Agency.
                                                                FCA Board and management are informed about the
                                                                status of new or pending legislation or regulations
                                                                initiated externally.
                                                                      The IG and Deputy IG/Counsel were active in
                                                                       informing the Board of the changes to reporting
                                                                       under the IG Act caused by the Dodd-Frank
                                                                       legislation. The IG now reports to the FCA
                                                                       Board, as agency head, as opposed to the
                                                                       Chairman of the FCA (as previously defined).
                                                                      Legislative update and reform is continually
                                                                       considered as a future remedy to outdated
                                                                       provisions in the Farm Credit Act.
                                                                Regulations reviewed by OIG are noted in the OIG’s
                                                                semiannual reports to Congress.




                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                           9
                                                 OUTREACH
  Objective – Work with our Agency head and the Congress to improve program management; and
      work with the Inspectors General Community and other related organizations to address
                                     governmentwide issues.


Performance Goal 1 – Promote OIG’s role within the FCA and the community at large.



          PERFORMANCE MEASURES                                                   OUTCOME / IMPACT

Develop and maintain educational brochures or                 Agency employees’ acceptance of and cooperation
pamphlets describing OIG roles and activities.                with OIG activities is improved through better
                                                              understanding. OIG programs and products are
    Examples include: Strategic Planning brochure,           improved through feedback from Agency employees.
     The IG at FCA pamphlet, FCA Orientation
     PowerPoint presentation, and input into the                      OIG updates Directives periodically.
     CIGIE Annual Report to the President.                            Developed PowerPoint presentation on the OIG
Facilitate feedback from Agency employees and refine                   at FCA for web use and for new employee
products and practices based on the feedback to OIG                    training.
products and educational materials.                                   Reaction to IG Observations has been positive.
    The OIG would be receptive to any and all                             Observation on compensation and grading
     feedback received from Agency management                               resulted in a consultant review.
     and staff regarding OIG practices and products.                       An inspection from a prior time period
                                                                            suggested revision of enforcement policies
                                                                            and procedures. Although at first reluctant,
                                                                            FCA management reaped the benefits of
                                                                            revising and upgrading enforcement policies
                                                                            and practices since they have been needed
                                                                            in recent times.
                                                                           An observation on Board policy review was
                                                                            successful in prompting revisions and
                                                                            suspense dates.
                                                              Audit follow-up is improved.
                                                                      Agreed-upon actions are implemented more
                                                                       expeditiously. Rarely does an action take more
                                                                       than a year to clear.

                                                              Responded to Congressional Request (Rep. Issa)
                                                              inquiries about “unimplemented recommendations.”




                                 Farm Credit Administration ♦ Office of Inspector General
                                      Fiscal Years 2010-2011 Performance Report
                                                                                                                        10
                                                   OUTREACH
    Objective – Work with our Agency head and the Congress to improve program management; and
        work with the Inspectors General Community and other related organizations to address
                                       governmentwide issues.

Performance Goal 2 – Provide leadership to organizations directly contributing to the IG community,
                     the Agency, and the Federal Government.

          PERFORMANCE MEASURES                                                     OUTCOME / IMPACT
Time and resources are provided to OIG staff                    Projects and activities of adjunct organizations such
members as an incentive to contribute to the Agency             as the AGA, the Institute of Internal Auditors, CIGIE
and outside organizations by serving on committees              Training Institute and CCIG meetings and forums are
and holding offices.                                            improved by OIG staff contributions and participation.
    OIG staff actively participated in CIGIE: IG is the         IG as Vice Chair of the CIGIE, along with the Chair
     Vice Chairperson of CIGIE. The IG is a member                leads monthly meetings of the Council and
     of the Executive Council of CIGIE. The IG and                Executive Council.
     staff participate on the Inspection and Evaluation
     Council of CIGIE, Association of Government                 OIG participates in the CIGIE working group on
     Accountants (AGA), Deputy Inspectors General                 inspections and evaluations. The group
     Quarterly meetings, Council of Counsels (CCIG),              collaborates and shares common areas for
     CIGIE Federal Audit Executive Committee                      inspection and evaluation work.
     (FAEC), CIGIE FAEC IT Committee, Instructor at
     the Federal Law Enforcement Training Center                 IG frequently makes presentations on the IG Reform
     (FLETC), Federal Women’s Program Committee,                  Act and CIGIE to organizations and international
     Blacks In Government, Administrative Burden                  groups.
     Reduction Workgroup, and the Combined
     Federal Campaign.                                           Deputy IG/Counsel led the development and
                                                                  presentation of a CIGIE course for new OIG
OIG networking opportunities have resulted in an
                                                                  attorneys.
expanded consideration of FCA ideas and practices
by community contacts and experts. The OIG has
                                                                 OIG auditors performed a peer review of the audit
shared telecommuting policies, hotline procedures,
                                                                  program of the OIG, Consumer Product Safety
performance measures and performance contracts
                                                                  Commission (CPSC) in 2011. FCA OIG shared with
and evaluation methods. Likewise, FCA benefits from
                                                                  the CPSC OIG several recommendations to improve
the opportunity to benchmark practices in other
                                                                  their audit operations.
agencies.
                                                                 An OIG auditor actively participates in the FAEC IT
                                                                  Committee. This subcommittee worked with the
                                                                  Office of Management and Budget to revise the
                                                                  performance metrics for FISMA reporting by OIGs.

                                                                 OIG auditor participated on an administrative
                                                                  workgroup charged with setting up the infrastructure
                                                                  for CIGIE operations which included developing
                                                                  business, financial and staffing plans; and acquiring
                                                                  business services, office space, IT equipment and
                                                                  services, and telecommunications.

                                                                FCA programs and operations are more effective and
                                                                efficient.

                                                                 OIG was acknowledged by the Project on
                                                                    Government Oversight (POGO) for having effective
                                                                    performance reporting.


                                   Farm Credit Administration ♦ Office of Inspector General
                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                         11
                                                                     APPENDIX

                                                                        AUDITS
                              AUDITS ARE                                            PRODUCTS ARE                  AUDITS ARE            AGENCY ACCEPTS
     AUDIT NAME                                    RISK ADDRESSED
                               RELEVANT                                                TIMELY                    CONSTRUCTIVE               ≥ 80 %

Regulation and Policy
                              OIG Initiated          Strategic Plan                       6 Months               No Action Items               N/A
Development

FCA’s Approval Process
                          FCA Board Chairman
of Funding Corporation                               Strategic Plan                       6 Months               No Action Items               N/A
                              Requested
Debt Issuances
FY 2009 and 2010
Financial Statements      Legislatively Mandated
                                                     Strategic Plan                       6 Months               No Action Items               N/A
(Issued in FYs 2010 and        Annual Audit
2011)

                                                                   INSPECTIONS

FCA’s Adherence to the
                                                                                                                                       Management Accepted;
Government in the             OIG Initiated          Strategic Plan                       4 Months             1 Agreed-Upon Action
                                                                                                                                           Implemented
Sunshine Act


                                                                                                                                       Management Accepted;
Borrower Complaint
                              OIG Initiated          Strategic Plan                       6 Months            10 Agreed-Upon Actions      9 implemented
Process
                                                                                                                                           1 outstanding

                                                                  EVALUATIONS

Federal Information
Security Management                                                                                            1 Agreed-Upon Action
                                                                                                                                       Management Accepted;
Act Evaluation for FY     Legislatively Mandated     Strategic Plan                       3 Months              (FY 2009 Evaluation
                                                                                                                                           Implemented
2009 and 2010 (Issued                                                                                                 Report)
in FYS 2010 and 2011)


                                                   Farm Credit Administration ♦ Office of Inspector General
                                                        Fiscal Years 2010-2011 Performance Report
                                                                                                                                                         12
